HHS/OIG, Audit -"Review of the State of Maryland's Medicaid Drug Rebate Program,"(A-03-03-00204)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the State of Maryland's Medicaid Drug Rebate Program," (A-03-03-00204)
May 8, 2003
Complete
Text of Report is available in PDF format (537 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to evaluate whether the Department of Health and Mental Hygiene (DHMH) had established
adequate accountability and internal controls over the Medicaid drug rebate program.  Our review showed that DHMH
had established accountability and controls over its Medicaid drug rebate program.  We had  no recommendations.